Supreme Court, U.S.
FILED

FEB 1 7 2021
OFFICE OF THE CLERK

No. 20-916

IN THE

Supreme Court of the United States
NATHANIEL KAIN HOOKER,
Petitioner
v.

PEOPLE OF THE STATE OF
ILLINOIS,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
from the Third District

-s

r,17

MOTION TO DISMISS
I HEREBY CERTIFY, that Nathaniel Kain Hooker is the Petitioner/Appellant in the
above mentioned case, and according to U.S. Supreme Court Rule 46, Mr. Hooker motions
this Highourt to dismiss this Petition for Writ of Certiorari. Mr. Hooker has paid the $300
filing fee, and the adverse party, The State of Illinois, has not filed a response or any other
material that Mr. Hooker is aware of at this time, in reference to Case No: 20-916. Attached
is proof of Service according to U.S. Supreme Court Rule 29.

RECEIVEDFEB 2 4 2021
OFFICE OF THE: CLERK

SUPREVE COURT, U.S.
•

WHEREFORE, Petitioner, Nathaniel Kain Hooker, prays for Dismissal in the above
mentioned case.
Respectfully submitted this 17th day of February, 2021.

Respectfully Submitted,
/4./ 1110-

1

By: /s/ Nathaniel KainHooker

Pro Se
Nathaniel Kain Hooker
538 Bond Avenue N.W.
Apartment 808
Grand Rapids, MI 49503
616-251-8141
hooker_nathaniel@yahoo.com

No. 20-916

IN THE

Supreme Court of the United States
NATHANIEL KAIN HOOKER,
Petitioner
v.

PEOPLE OF THE STATE OF
ILLINOIS,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
from the Third District

t t

CERTIFICATE OF SERVICE
Nathaniel Kain Hooker, HEREBY CERTIFY, pursuant to Supreme Court Rule 29, that
on this 17th day of February, 2021, true copies of the Motion to Dismiss the Petition for Writ of
". - Certiorarifor Case No: 20-219, were mailed to each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing it in an envelope in the
United States mail, properly addressed, to the Clerk, United States Supreme Court, One First
Street, N E., Washington, D.C. 20543; to Mr. Thomas D. Arado, Deputy Director, State's
Attorneys Appellate Prosecutor, 628 Columbus, Suite 300, Ottawa, IL 61350, as well as by
causing the same to be transmitted through electronic mail to: 3rddistrict.eserve@osad.state.il.us,
tarado@ilsaap.org. All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.
Executed this 17th day of February, 2021.
Respectfully Submitted,
By: /s/ Nathaniel KainHooker
Pro Se
Nathaniel Kain Hooker
538 Bond Avenue N.W.
Apartment 808
Grand Rapids, MI 49503
616-251-8141
hooker_nathaniel@yahoo.com

